                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: AI0070055                                                                     Page 1 of 1



                 We contacted the Subject l about alleged plagiarism in two NSF proposals. 2 One proposal
         contains sections of text that also appear in the Ph.D. dissertation of the Subject's graduate
         studene who was completing his dissertation during the same period the proposal was being
         prepared. The student separately confirmed that he was involved in proposal preparation.
         Subject described his lack of editing of the proposal before submission to properly reference the
         completed dissertation as an oversight. Subject's second proposal contains a minimum of
         apparently copied text in background material prepared by a student. The extent of copied text is
         insufficient for our office to pursue separate action against the unnamed student. The importance
         of proper citation in proposals was emphasized in a follow-up letter to the Subject.

                   Accordingly, this case is closed.




NSF OIG Form 2 (I 1102)
